9/13/2021

Visa Platinum Points Choice Rewards | Members 1st Federal Credit Union

VISA PLATINUM® POINTS REWARDS
DISCLOSURE

INTEREST RATE AND INTEREST CHARGES

Annual Percentage
Rates (APR) for
Purchases

12.00% to 18.00%,

based on your creditworthiness at the time of application. After account opening,

your APR will vary with the market based on the Prime Rate.

APR for Cash
Advances and
Balance Transfers

Penalty APR and
When It Applies

12.00% to 18.00% when you open your account, based on your creditworthiness. After account opening,
your APR will vary with the market based on the Prime Rate.

18.00% If your account becomes 60 days delinquent. How long will the Penalty APR Apply? If your APRs
are increased for the reason above, the Penalty APR will be applied to your balances for a minimum of six
(6) months or payment cycles. Penalty APR will apply until you make six (6) consecutive monthly payments.

How to Avoid Paying

Your due date is approximately twenty-five (25) days after the close of each billing cycle. We will not charge

Interest on

you interest on purchases if you pay your entire balance by the due date each month. We will begin charging

Purchases

interest on cash advances and balance transfers on the transaction date.

For Credit Card Tips
from the Consumer

To learn more about factors to consider when applying for or using a credit card, visit the website of the

Financial Protection

Consumer Financial Protection Bureau at https://www.consumerfinance.gov/learnmore.

Bureau

Transaction Fees

Annual Fees

None

Balance Transfer

None

Cash Advance

None

Foreign Transaction
None
Fees

ATM Transaction

None

Penalty Fees

Up to twenty-seven dollars ($27.00) the first time, any subsequent violation within six (6) months up to
Late Payment
thirty-seven dollars ($37.00). This applies to payments received after five (5) days from the due date.

Over Limit Fee (Opt
Up to $15.00
In)

Return Payment

$20.00

Other Fees

Card Replacement

$10

Returned Statement

You will be charged one dollar ($1.00) for each monthly billing statement that is returned.

Copies of Visa
You will be charged three dollars ($3.00) for each copy you request of a receipt for any purchase, credit,
Transaction Receipts
Cash Advance, or of a monthly billing statement (except in connection with the resolution of a billing error).
and Statements

https://www.members1st.org/personal/spend/visa-cards/visa-platinum-points-rewards-disclosure

1/2

9/13/2021

Visa Platinum Points Choice Rewards | Members 1st Federal Credit Union
How We Will Calculate Your Balance: We use a method called "average daily balance" (including new purchases). See your account
agreement for further information regarding how we calculate your balance. The above rates and fees are current as of April 1, 2020.
The variable APRs are based on the current Prime Rate of 3.25%.

Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided on your monthly
account statement.

Cash Rewards Information: Your Members 1st FCU Visa Platinum Cash Rewards card will earn 1.0% cash rewards on all new
qualifying net purchases (less credits, returns and adjustments). You will earn cash rewards of 2.0% for all new qualifying net
purchases at eligible grocery merchants, wholesale clubs, and gas merchants. Eligible grocery merchants and wholesale clubs are
classified by standard industry codes (SIC) of 5411, 5451 and 5530. Eligible gas merchants are classified by standard industry codes
(SIC) of 5541 and 5542. Members 1st FCU cannot be held liable or responsible for merchants that are not properly identified with
these SIC codes which will result in receiving only 1.0% cash rewards. Balance Transfers, Cash Advances, Convenience Checks,
purchasing of money orders or cash equivalents (including ATM advances) are not eligible for cash rewards. Should your account
become 90 days or more delinquent or fall out of good standings any and all accumulated cash rewards will be forfeited. Cash
Rewards Redemption Options: Minimum redemption amount is $25.00. Cash rewards do not expire. For more information regarding
redemption options, visit ScoreCardRewards.com.

Balance Transfer: All Balance Transfer requests are determined by your available line of credit and should your request exceed that
amount it will be declined. You do have the ability to request a line of credit increase to support your request if need be. Please allow
a minimum of up to two (2) weeks for processing and receipt by the identified recipients. Members 1st FCU is not responsible for any
fees or interest associated with the identified recipient account transfers. It is your responsibility to make all minimum payments on
any account from which you are transferring funds to thus insuring these accounts are in good standings, as well as closing them if
you select. Balance Transfers can be credited directly to a member’s checking or savings account. All Balance Transfers incur
interest charges at the disclosed APR from the time of the transaction date, not the check clearing date by the recipient.

Military Lending APR: Effective October 1, 2017, Federal law provides important protections to members of the Armed Forces and
their dependents relating to extensions of consumer credit. In general, the cost of consumer credit to a member of the Armed Forces
and his or her dependent may not exceed an annual percentage rate of 36 percent. This rate must include, as applicable to the credit
transaction or account: The costs associated with credit insurance premiums; fees for ancillary products sold in connection with the
credit transaction; any application fee charged (other than certain application fees for specified credit transactions or accounts); and
any participation fee charged (other than certain participation fees for a credit card account). The audio version of this disclosure can
be heard by calling 1-800-309-1766.

https://www.members1st.org/personal/spend/visa-cards/visa-platinum-points-rewards-disclosure

2/2

